No. 19AIN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES FISH AND WILDLIFE SERVICE, AND
NATIONAL MARINE FISHERIES SERVICE,
APPLICANTS
v.
SIERRA CLUB, INC.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the APPLICATION FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE A
PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT, via email and first-class mail, postage prepaid, this
16th day of August, 2017.
[See Attached Service List]

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

August 16, 2017
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST:
US FISH AND WILDLIFE SERVICE, ET AL. V. SIERRA CLUB, INC.

Reed W. Super, Esq.
SUPER LAW GROUP, LLC
180 Maiden Lane
Suite 603
New York, NY 10038
212-242-2355
reed@superlawgroup.com

